-
Division
                      CLOSEOUT FOR M93120064




inflammatmp~blic- comments that P
complainant) had been making about
                                               -
                                               -
     The events involved in this case came to the attention of OIG
on November 9, 1993, when we received a memorandum from
       (the supervisor), Head of the                          of the
                                  at NSF. He was concerned about

program officer), the NSF Program Director for
and              supervisee. OIG then received an allegation of
                                                                (the
                                                                (the




-
m i s c w e c t l y from the complainant.       In a letter dated
December 6, 1993, the complainant said that the peer review process
at NSF "is completely corrupted by conflict of interest, utterly
devoid of any scientific integrity and honesty.       It tilts the
playing field in favor of those who got there first, regardless of
the merit or contributions of newcomers."       He also complained
about the scientific competence and professional courtesy of
                   of                       (the reviewer) , who had
read and commented on an informal proposal written by the
complainant. The reviewer first received this proposal when the
complainant had sent it to him directly, and later received it
again when the program officer solicited his opinion of it.
     The sequence of events leading up to this complaint began,
apparently in late 1992, when the complainant sent the reviewer a
draft of a paper and inquired about possible funding sources for
future work. The reviewer suggested that the complainant contact
an appropriate NSF program.      Following this suggestion, the
complainant sent "a draft of the same paper and an informal
proposal to extend the workn to the program officer. The program
officer wrote to the complainant that he had "reviewed your draft
proposal, discussed it with two external reviewers, and talked to
the (    l m group within NSF." He said that his reviewers
"noted many flaws in the approachu and enclosed the comments of the
reviewer "with a short personal note blackened." The complainant
was able to read the personal note by holding the paper up to the
light, and was thus able to identify the reviewer.
     The complainant recounted the story of his treatment by the
reviewer and the program officer in a message sent'out for general
distribution on an electronic mail network. He reiterated his
charges of cronyism and incompetence in a subsequent letter to the
program officer and in his letter to OIG.

                            page 1 of 3
     The facts the complainant provided do not in any way support
an allegation of misconduct in science. What the complainant
labels as conflict of interest is really a challenge to one of
NSFrsestablished and considered criteria for selecting reviewers--
seeking researchers actively working in the same specialty to
review proposals (see Proposal and Award Manual, Section 122.4).
NSF instructs program officers to be conscious of possible biases
in the selection of reviewers and alert to indications of bias in
the reviews they receive. NSF has extensive guidelines (See NSF
Manual 15, "NSF Conflict-of-Interests Rules and Standards of
ConductIf)that seek to minimize conflicts of interest, and there is
no allegation that NSF guidelines were not followed in this case.
The complainant likewise presents no evidence of dishonesty or lack
of integrity. He alleges that NSF does not judge the contributions
of new scientists on merit, but the evidence he supplies indicates
that both the program officer and the reviewers whose opinions he
sought made substantive scientific evaluations of his informal
proposal. While it is possible that these scientific judgments
were mistaken, scientific error, as such, is not misconduct.
     O I G discussed the handling of the informal proposal with the
program officer.     We noted that his actions had breached the
confidentiality of the reviewer's identity and subjected him to
public attacks on his competence and integrity.        The program
officer told us that he has apologized to the reviewer. We also
discussed with him the proper technical measures to redact
confidential material.
     OIG also asked him whether he believed it was appropriate for
program officers to send draft proposals out for informal review.
He told us that management in his division, when this incident
originally came to light, informed him that it was not. OIG noted
that NSF1s formal review process safeguards the anonymity of
reviewers and that following it would have prevented the breach of
confidentiality that occurred in this case. We further explained
that inexperienced researchers, such as the complainant, who want
expert advice about their work can either contact experts in their
fields directly or submit proposals for formal review, so that
program officers need not circumvent normal NSF procedures to help
such researchers get feedback on their work. O I G also told the
program officer that sponsoring informal review processes can
undermine our normal review process and open the agency to charges
of favoritism. The program officer affirmed that he now recognized
the pitfalls of this practice.     He pointed out that, as a new
employee with sole responsibility for his program and with the
position normally responsible for his immediate supervision vacant
at the time, he had not been fully acquainted with agency
procedures when this incident took place.
     O I G is satisfied that no misconduct in science took place here
and that this is an isolated incident and not part of a pattern
that needs to be brought to the attention of NSF management. This
                            page 2 of 3
case is closed and no further action will be taken.


cc: Signatories
    Inspector General




                          page 3 of 3
